Sm
|

(“OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1647
VALERIE HANEY,
Petitioner,
v.

CHURCH OF SCIENTOLOGY INTERNATIONAL
AND RELIGIOUS TECHNOLOGY CENTER,
DAVID MISCAVIGE, AND DOES 1-25,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2999 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

, GENERAL NOTARY-State of Nebraska Q ; , 1 / V4 Chk

Notary Public Affiant

 

 

41222
